                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: A10090076                                                                      Page 1 of 1



                 NSF OIG reviewed an allegation of plagiarism in a proposal 1 submitted by a Pf on behalf
         of a small business. 3 We contacted the PI and received a response from the company's attorney . 4
         In the response, the attorney said the company did not deny that the proposal contained copied
         text and said that it had implemented corrective measures to prevent future plagiarism.

                We initiated an internal investigation, during which the attorney provided us with
         documents proving that the PI did not himself author the proposal. We sent the PI a QRP
         reminding him of his responsibility to name all authors of proposals within an NSF proposal.

                   Accordingly, this case is Closed and no further action will be taken.




NSF OIG Form 2 ( 11/02)
